Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





 CONFLICTS AND FINANCIAL 

   RELATIONSHIPS AMONG 

 POTENTIAL ZONE PROGRAM 

  INTEGRITY CONTRACTORS





                    Daniel R. Levinson

                     Inspector General


                       July 2012 

                     OEI-03-10-00300 

EXECUTIVE SUMMARY: CONFLICTS AND FINANCIAL RELATIONSHIPS
AMONG POTENTIAL ZONE PROGRAM INTEGRITY CONTRACTORS
OEI-03-10-00300

WHY WE DID THIS STUDY

The Centers for Medicare & Medicaid Services (CMS) uses Zone Program Integrity Contractors
(ZPIC) to perform program integrity activities designed to fight fraud, waste, and abuse in the
Medicare program. Conflicts of interest among ZPICs could compromise CMS’s efforts to
protect the program. CMS requires companies that submit proposals for ZPIC contracts
(offerors) and their subcontractors to (1) disclose information about any business or contractual
relationships that may present conflicts and (2) provide a strategy to mitigate all conflicts of
interest that may compromise the ZPICs’ impartiality in conducting their work.

HOW WE DID THIS STUDY

We reviewed conflict-of-interest information for 18 offerors and 85 subcontractors. We also
conducted a structured interview with CMS staff to determine how CMS addresses conflicts of
interest among offerors. We determined whether offerors and subcontractors provided CMS all
the information required for their reported conflicts and financial interests.

WHAT WE FOUND

Offerors and their subcontractors often had business and contractual relationships with CMS and
with other offerors, but rarely considered them to be actual conflicts. They reported having
relationships with CMS or contractors of CMS that provide Medicare Parts C and D plans,
claims processing, program integrity, and/or quality improvement services. Offerors,
subcontractors, and CMS identified 1,919 business and contractual relationships as possible
conflicts and 16 as actual conflicts. CMS does not have a written policy for reviewing conflict
and financial interest information submitted by offerors, and submitted information was not
always consistent or complete. Specifically, some offerors and subcontractors failed to provide
all the requisite information regarding financial interests in other entities.

WHAT WE RECOMMEND

To encourage an environment of transparency and accountability among contractors, we
recommend that CMS: (1) provide clearer guidance in the Request for Proposals to offerors and
subcontractors regarding which business and contractual relationships should be identified as
actual conflicts and which should be identified as possible conflicts; (2) require offerors and
subcontractors to distinguish those business and contractual relationships that they deem to be
actual conflicts from those they deem to be possible conflicts; (3) state whether offerors and
subcontractors need to report income amounts, periods of performance, and types of work
performed for their contracts with CMS and income amounts generated from key personnel’s
other employment; (4) create a standardized format for reporting information in the
Organizational Conflict of Interest Certificate and require its use by offerors and subcontractors;
and (5) develop a formal, written policy outlining how conflict-of-interest information provided
by offerors should be reviewed by CMS staff. CMS partially concurred with our first and second
recommendations and fully concurred with the remaining recommendations.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................7 

Findings......................................................................................................10 

           Offerors and their subcontractors often had business and 

           contractual relationships with CMS and with other offerors, but 

           rarely considered them to be actual conflicts .................................10 

           Offerors, subcontractors, and CMS identified 1,919 business and 

           contractual relationships as possible conflicts and 16 as actual 

           conflicts..........................................................................................12

           The most common strategy proposed to mitigate conflicts was 

           to impose restrictions on information and resource sharing 

           within the offeror’s or subcontractor’s company ...........................14 

           CMS does not have a written policy for reviewing conflict and 

           financial interest information submitted by offerors, and  

           submitted information was not always consistent or complete .....16 

Conclusion and Recommendations ............................................................19 

           Agency Comments and Office of Inspector General Response.....21 

Appendixes ................................................................................................23 

           A: 	Conflict of Interest Requirements Established in the Zone 

               Program Integrity Contractor Request for Proposals...............23 

           B: 	Number and Type of Conflicts by Individual Offerors ............30 

           C: Agency Comments ...................................................................31 

Acknowledgments......................................................................................36 

                   OBJECTIVES
                   1.	 To determine the extent to which offerors reported business and
                         contractual relationships with other offerors and the Centers for
                         Medicare & Medicaid Services (CMS).
                   2.	 To determine the number of conflicts of interest identified by offerors
                         or CMS during the Zone Program Integrity Contractor (ZPIC)
                         contracting process.
                   3.	 To determine what strategies offerors proposed to mitigate conflicts of
                         interest.
                   4.	 To determine whether offerors provided consistent and complete
                         information on their conflicts and financial interests to CMS and
                         whether CMS reviewed this information.

                   BACKGROUND
                   A conflict of interest exists if a Federal contractor is unable or potentially
                   unable to provide impartial assistance or advice to the Government.1
                   Conflicts of interest among Federal contractors can compromise the
                   integrity of the contracting process. Federal regulations provide guidance
                   for resolving conflicts among contractors.
                   CMS employs program integrity contractors to identify fraud, waste, and
                   abuse in the Medicare program. ZPICs are of particular importance
                   because they perform the majority of program integrity work for CMS.
                   Therefore, conflicts of interest that affect the impartiality of ZPICs could
                   weaken CMS’s efforts to protect Medicare from fraud, waste, and abuse.
                   For example, a program integrity contractor owned by a health insurance
                   company offering a Medicare prescription drug plan might have a
                   disincentive to investigate suspected fraud involving those particular
                   prescription drug plans.
                   Conflicts of interest that go undetected or are not appropriately addressed
                   could cost the Medicare program money and weaken public trust in its
                   services. If ZPICs with conflicts of interest become less vigilant in
                   combating fraud, then taxpayer dollars may be wasted on payments to
                   unscrupulous providers. Situations in which conflicted contractors are
                   unable to conduct their responsibilities impartially could undermine public
                   trust that Medicare is protected from fraud. As a result, it is important that
                   systems be in place to ensure the independence and integrity of program
                   integrity contractors.

                   1
                       Federal Acquisition Regulation (FAR), 48 CFR pt.2, subpart 2.1.

Conflicts and Financial Relationships Among Potential Zone Program Integrity Contractors (OEI-03-10-00300)   1
                   In a letter to the Office of Inspector General (OIG), Senators Max Baucus,
                   Thomas R. Carper, and Claire McCaskill raised concerns about potential
                   conflicts of interest among contractors that perform Medicare
                   administrative and program integrity functions. This report was prepared
                   in response to their letter.
                   The Role of Private Contractors in Administering Medicare
                   As the agency responsible for administering Medicare, CMS employs
                   contractors to conduct the day-to-day operations of the program, such as
                   claims processing, as well as to conduct program integrity activities
                   designed to fight fraud, waste, and abuse. Among other responsibilities,
                   program integrity contractors develop and refer suspected cases of fraud to
                   OIG for further investigation.
                   The Medicare Prescription Drug, Improvement, and Modernization Act of
                   2003 substantially changed CMS’s Medicare contracting process. The law
                   requires CMS to award contracts under the FAR, which requires an open,
                   competitive award process.2 CMS has estimated that the Medicare
                   contracting reform provisions in the law would result in cost savings from
                   increased competition, consolidation of claims processing functions, and
                   reductions in claims error rates.3
                   The Transition to ZPICs
                   CMS created ZPICs to consolidate all Medicare program integrity
                   functions under one type of contractor in a geographic zone. As of
                   October 2011, ZPICs are replacing Program Safeguard Contractors (PSC)
                   that perform program integrity work in Medicare Parts A and B. At the
                   time ZPICs were established, CMS stated that ZPICs may also assume
                   some of the work of the Medicare Drug Integrity Contractors (MEDIC)
                   that currently perform program integrity activities for Medicare Parts C
                   and D. The new contracting arrangement requires that one ZPIC be
                   assigned to each of seven geographic zones. CMS began to transfer
                   program integrity workloads from the PSCs to ZPICs in 2008. ZPIC
                   contracts for all seven zones have been awarded.
                   ZPICs identify improper billing patterns that indicate potential fraud,
                   waste, and abuse; investigate cases of suspected fraud; and refer cases to
                   OIG for further investigation. The ZPIC Statement of Work details the
                   range of activities that may be required of ZPICs.




                   2
                       48 CFR pt.1, subpart 1.102-2(c).
                   3
                    Department of Health and Human Services (HHS), Medicare Contracting Reform: A
                   Blueprint for a Better Medicare, p. IV-2, February 7, 2005.

Conflicts and Financial Relationships Among Potential Zone Program Integrity Contractors (OEI-03-10-00300)   2
                   The Contract Award Process for ZPICs
                   CMS begins the contract award process with the release of a Request for
                   Proposal (RFP).4 The RFP outlines CMS’s requirements, the nature of the
                   work required, and the contract’s period of performance and deliverables.
                   Prospective ZPICs (offerors) compete for contracts by submitting a
                   business proposal, including information about the company’s financial
                   status; a technical proposal describing the company’s ability to perform
                   the required work; a list of any actual, apparent, or potential conflicts of
                   interest; and a conflict-of-interest and compliance plan that stipulates how
                   the company would resolve any conflicts.
                   A Technical Evaluation Panel evaluates and scores each technical proposal
                   by applying criteria in the RFP.5 Using the panel’s rating of each proposal,
                   the CMS contracting officer may establish a “competitive range” that
                   includes the most highly rated proposals. These offerors then have an
                   opportunity to discuss improvements to their proposals with CMS before
                   submitting final revised proposals. Finally, the contracting officer selects
                   a proposal that is determined to provide the “best value” to the
                   Government.
                   Conflicts of Interest Among Offerors in the ZPIC Award
                   Process
                   Requirements for identifying and mitigating of conflicts of interest are
                   provided in both the FAR and the RFP for ZPIC contracts.6 For example,
                   a conflict of interest exists if a ZPIC is unable or potentially unable to
                   provide impartial assistance or advice to the Government. The
                   Government Accountability Office (GAO) has further clarified the FAR to
                   establish three types of conflicts of interest:
                        	 An offeror has an “unequal access to information” conflict when,
                           through its work as part of a Government contract, it has access to
                           nonpublic information that may provide the offeror a competitive
                           advantage in a later solicitation for a Government contract.
                        	 An offeror has a “biased ground rules” conflict when, as part of its
                           performance of a Government contract, it has set the ground rules
                           for another Government contract by, for example, writing a
                           Statement of Work.


                   4
                    The contract award process is established in FAR pt. 15 and supplemented in HHS
                   Acquisition Regulation pt. 315.

                   5
                     Criteria include the company’s expertise in carrying out fraud investigations and conducting 

                   data analysis.

                   6
                    Requirements regarding conflicts of interest among Federal contractors are established in 

                   FAR subpart 9.5.


Conflicts and Financial Relationships Among Potential Zone Program Integrity Contractors (OEI-03-10-00300)        3
                        	 An offeror has an “impaired objectivity” conflict when its work
                           under a Government contract could involve evaluating itself. 7
                   The FAR does not require that all contractors be free of conflicts.
                   Contracting officers may award a contract even if an offeror has a conflict
                   of interest that cannot be avoided or mitigated, as long as they establish
                   that an award is in the Government’s “best interest.” In such a case, a
                   waiver must be requested. However, the RFP explicitly states that
                   contractors should be free of conflicts of interest “to the greatest extent
                   possible.”
                   Requirements in the ZPIC RFP. The ZPIC RFP includes a number of
                   disclosure requirements designed to identify any conflicts and address
                   them before a contract is awarded. Offerors and their subcontractors must
                   establish a conflict-of-interest program to identify, evaluate, and mitigate
                   all conflicts of interest that prevent, or would appear to prevent, the ZPIC
                   from conducting work in an impartial manner.8
                   The contracting officer assesses the offeror’s conflict-of-interest and
                   compliance plan independently of the Technical Evaluation Panel’s formal
                   scoring of the offeror’s proposal. The plan assessment is not part of the
                   formal scoring process.
                   The RFP requires that offerors and their subcontractors disclose any
                   actual, apparent, and potential conflicts of interest by means of an
                   Organizational Conflict of Interest Certificate. However, the RFP does not
                   provide definitions or examples that differentiate between actual, apparent,
                   and potential conflicts. The certificate must identify all actual, apparent,
                   and potential conflicts of interest that preclude, or would appear to
                   preclude, impartiality. The document must include the following items (a
                   complete list is provided in Appendix A):
                        	 a description of all business or contractual relationships or
                           activities that could be viewed as conflicts of interest by a prudent
                           businessperson;
                        	 a description of the methods to be used to mitigate any conflict;
                        	 a description of the offeror’s program to monitor its own and its
                           subcontractors’ compliance with conflict-of-interest requirements;



                   7
                    GAO Bid Protest Decision, Aetna Government Health Plans, Inc.; Foundation Health
                   Federal Services, Inc., File B-254397.15, B-254397.16, B-254397.17, B-254397.18, and
                   B-254397.19, July 27, 1995.
                   8
                     Subcontractors are used by offerors to perform services such as medical review of claims,
                   statistical analysis, data management, and database administration.

Conflicts and Financial Relationships Among Potential Zone Program Integrity Contractors (OEI-03-10-00300)       4
                        	 a written affirmation attesting to the accuracy of the information in
                           the certificate;
                        	 a description of the offeror’s corporate and organizational 

                           structure; 

                        	 an accounting of the offeror’s financial interests (percentage of
                           ownership in any other entity, income generated from other
                           sources, contracts or arrangements with any insurance organization
                           or its subcontractors, or provider of Medicare- or
                           Medicaid-reimbursed services);9
                        	 a list of all of the officers, directors, and managers involved or
                           potentially involved in the contract with a description of their
                           potential conflicts of interest and financial interests (officers,
                           directors, and mangers are hereafter referred to as “key
                           personnel”); and
                        	 a list of all subcontractors to be used in the contract.
                   Offerors that are awarded ZPIC contracts are required under the RFP to
                   submit an Organizational Conflict of Interest Certificate to the CMS
                   contracting officer annually on October 31.
                   Although not required by the FAR, CMS performs annual
                   conflict-of-interest compliance audits for each ZPIC contract. These
                   compliance audits are for the period November 1 through October 31 each
                   year. If any new conflicts are found, CMS will notify the ZPIC and
                   require the contractor to submit updated information, which may include
                   an updated Organizational Conflict of Interest Certificate and/or a revised
                   mitigation strategy, depending on the specific issue.
                   CMS Review Process
                   CMS staff reported that they review all the certificates they receive from
                   offerors and subcontractors to determine whether the requirements in the
                   RFP are met. While the RFP requires that offerors and subcontractors
                   provide certain information about their business and contractual
                   relationships, it does not require that offerors and subcontractors use a
                   standardized organizational format to do this. Therefore, the information
                   CMS receives varies in length and format across all offerors and
                   subcontractors. In addition, the number and complexity of the offerors’



                   9
                     Offerors and subcontractors are also required to report the dollar amount, type of work
                   performed, and period of performance for contracts or arrangements with insurance
                   organizations, subcontractors of insurance organizations, and providers of Medicare- or
                   Medicaid- reimbursed services.

Conflicts and Financial Relationships Among Potential Zone Program Integrity Contractors (OEI-03-10-00300)     5
                   business and contractual relationships also affect the volume of the
                   information received.
                   CMS staff also determine whether any conflicts of interest exist for
                   offerors or subcontractors. They base these determinations on a review of
                   the specific circumstances of disclosed business or contractual
                   relationships. Each certificate that CMS receives from offerors and
                   subcontractors can include hundreds of pages. During the entire ZPIC
                   conflict-of-interest review process, CMS reviewed approximately 10,000
                   pages.
                   Once offerors are selected for the competitive range, their certificates and
                   those of their subcontractors are more closely reviewed. CMS staff has
                   discussions with these offerors regarding the information in the
                   certificates. After the discussions, the offerors in competitive range are
                   asked to submit revised certificates that address CMS’s concerns.
                   After CMS determines which offeror will be awarded the ZPIC contract, it
                   performs a more detailed review of the offeror’s revised Organizational
                   Conflict of Interest Certificate and those of its subcontractors. If any
                   unresolved conflict-of-interest issues remain, CMS conducts an exchange
                   with the offeror until a resolution is reached and the contract can be
                   awarded. Any information that CMS needs to complete its assessment and
                   review of the certificate is requested at this time.
                   Conflict-of-Interest Protests During the ZPIC Award Process
                   Offerors may file formal protests with GAO if they object to CMS’s
                   contracting decisions.10 Since the ZPIC award process began, protests
                   have been filed covering various issues, including conflicts of interest.11
                   In two of the sustained protests, the issue was the level of detail CMS
                   accepted in the offerors’ plan to mitigate a conflict of interest.12
                   According to GAO, CMS awarded contracts for Zones 2 and 5 to
                   AdvanceMed, Inc., without reasonably considering the plan proposed by
                   AdvanceMed to mitigate its conflicts of interest.
                   AdvanceMed’s parent company has contracts with Medicare Part D plan
                   sponsors, e.g., information technology services contracts.13 According to
                   CMS, AdvanceMed might have evaluated its parent company’s work if it

                   10
                        GAO bid protest regulations are established in 4 CFR pt. 21.
                   11
                        GAO bid protest determinations are not binding and can be overridden by an agency.
                   12
                     GAO Bid Protest Decision, C2C Solutions, Inc., File B-401106.5, January 25, 2010; GAO
                   Bid Protest Decision, Cahaba Safeguard Administrators, LLC, File B-401842.2, January 25,
                   2010.
                   13
                      Medicare Part D prescription drug coverage is provided through private sponsors that offer
                   a choice of plans with different costs and coverage.

Conflicts and Financial Relationships Among Potential Zone Program Integrity Contractors (OEI-03-10-00300)     6
                   had been tasked with conducting program integrity work for Medicare
                   Part D. There was a possibility that Part D program integrity work would
                   never be awarded because it was an option under the ZPIC contract.
                   However, GAO still held that CMS should have obtained a more detailed
                   mitigation plan.
                   GAO recommended that CMS reconsider its determination of
                   AdvanceMed’s eligibility for awards. In both cases, CMS gave
                   AdvanceMed an opportunity to draft a more detailed mitigation plan. The
                   contracting officer reviewed the revised plans and approved them.

                   METHODOLOGY
                   Scope
                   Our study is limited to the five zones where ZPIC contracts were awarded
                   at the time our study began in October 2010: Zones 1, 2, 4, 5, and 7. At
                   the time of our data collection, ZPIC contracts for Zones 3 and 6 had not
                   yet been awarded.
                   Data Collection
                   Documentation From CMS. We obtained the following from CMS:
                         	 copies of the portions of the proposal that dealt specifically with
                            conflicts of interest submitted by each offeror for the five ZPIC
                            zones, including the Organizational Conflict of Interest Certificates
                            submitted by each offeror and each of their subcontractors; and
                         	 copies of statements, files, analyses, notes, records of
                            conversations and meetings, and correspondence CMS used to
                            review offerors’ conflicts of interest.
                   Interview With CMS staff. We interviewed relevant CMS staff to
                   determine what procedures CMS uses for identifying and reviewing
                   conflicts of interest among ZPIC offerors.
                   Data Analysis
                   A total of 19 offerors submitted proposals for ZPIC contracts in Zones 1,
                   2, 4, 5, and 7. CMS provided Organizational Conflict of Interest
                   Certificates for 18 of the 19 offerors. CMS was unable to locate and
                   provide documentation for one offeror in one zone.14 We reviewed
                   original and, if submitted, revised Organizational Conflict of Interest
                   Certificates for 18 offerors and 85 subcontractors. Because some
                   companies submitted proposals for ZPIC contracts in more than 1 zone,
                   there were only 12 unique ZPIC offerors. The first finding of this report is

                   14
                        This offeror was not awarded a ZPIC contract.

Conflicts and Financial Relationships Among Potential Zone Program Integrity Contractors (OEI-03-10-00300)   7
                   based on these 12 unique offerors. All of the remaining findings are based
                   on the total of 18 offerors.
                   We reviewed the original and revised Organizational Conflict of Interest
                   Certificates submitted by offerors and their subcontractors to determine
                   whether they met conflict-of-interest disclosure requirements outlined in
                   the RFP. We also reviewed the certificates to determine the number of
                   conflicts of interest disclosed by the offerors and their subcontractors.
                   To determine the business and contractual relationships that offerors and
                   subcontractors had with each other and with CMS, we analyzed the
                   conflict and financial interest information provided in Organizational
                   Conflict of Interest Certificates.
                   We reviewed documentation generated by offerors, subcontractors, and
                   CMS to quantify and categorize conflicts of interest. We categorized
                   those conflicts into two groups: (1) actual conflicts and (2) possible
                   conflicts.
                   Actual Conflicts. Actual conflicts are situations in which an offeror, a
                   subcontractor, or CMS described a business or contractual relationship as
                   an actual conflict. To be included in this category, a conflict must not
                   have been described using other terms, such as “apparent,” “potential,” or
                   “perceived.”
                   Possible Conflicts. Possible conflicts are situations in which an offeror, a
                   subcontractor, or CMS described a business or contractual relationship as
                   an apparent, potential, or perceived conflict. No additional information
                   was provided that would designate the business or contractual relationship
                   as an actual conflict. There was also no indication that the business or
                   contractual relationship was not an actual conflict. This category also
                   includes situations in which an offeror identified business or contractual
                   relationships of various types without specifying which were actual or
                   possible conflicts.
                   If documentation showed that CMS’s description of a conflict differed
                   from the offeror’s or subcontractor’s description, we based our
                   categorization of the conflict on CMS’s decision. For example, CMS
                   determined some conflicts to be actual even though offerors did not
                   specify the type of conflict.
                   We also reviewed mitigation information provided by offerors and
                   subcontractors to quantify and categorize their mitigation strategies.
                   Some offerors submitted more than one version of their Organizational
                   Conflict of Interest Certificates—an original certificate and a revised
                   certificate(s) that incorporated changes based on concerns raised by CMS.


Conflicts and Financial Relationships Among Potential Zone Program Integrity Contractors (OEI-03-10-00300)   8
                   In categorizing conflicts and mitigation strategies, we used the most recent
                   certificate submitted by each offeror during the award process.
                   We also determined whether offerors and subcontractors submitted
                   complete information regarding their financial interests as well as those of
                   their key personnel. According to the RFP, this includes: (1) percentage
                   of ownership in any other entity, (2) income generated from other sources,
                   and (3) contracts or arrangements with any insurance organization or its
                   subcontractors or provider of Medicare- or Medicaid-reimbursed services.
                   To assess how CMS reviewed offerors’ and subcontractors’ conflicts of
                   interest, we reviewed documentation submitted by CMS. This included
                   copies of statements, files, analyses, notes, records of conversations and
                   meetings, and correspondence. We reviewed the documentation to
                   determine whether CMS identified any concerns with offerors’ and
                   subcontractors’ Organizational Conflict of Interest Certificates.
                   Limitations
                   All of the information in the “Findings” section of this report was
                   provided to us by CMS, including offerors’ and subcontractors’
                   information. We did not verify the information provided.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.




Conflicts and Financial Relationships Among Potential Zone Program Integrity Contractors (OEI-03-10-00300)   9
                   FINDINGS
                   Offerors and their subcontractors often had business
                   and contractual relationships with CMS and with other
                   offerors, but rarely considered them to be actual
                   conflicts
                   Ten of the twelve unique offerors described having business or contractual
                   relationships with CMS and/or another offeror at the time proposals were
                   submitted. These 10 offerors reported a total of 31 relationships with
                   CMS or contractors of CMS that provide Medicare Parts C and D plans,
                   claims processing, program integrity, and/or quality improvement services.
                   The three unique offerors that won ZPIC contracts reported having six
                   such relationships. Some of the 10 offerors considered these business and
                   contractual relationships to be actual or possible conflicts, while others
                   characterized them as financial relationships but not conflicts.
                   Seven offerors were subsidiaries of health insurance
                   companies that offered Medicare plans
                   Seven offerors were owned by five health insurance companies, which
                   had contracts to provide Medicare Part C and/or D plans. The seven
                   offerors either did not report their relationships to Medicare Parts C and D
                   plan sponsors as actual conflicts hindering their ability to provide
                   impartial assistance to the Government or did not specify that these
                   relationships were actual conflicts.
                   Some offerors stated that their ZPIC program integrity work would occur
                   in a geographic area different from the one where their parent companies
                   offered Medicare Part C and/or D plans. Other offerors contended that
                   separate corporate and governance structures prevented any influence by
                   their parent companies on their objectivity in performing program
                   integrity work under the ZPIC contract. CMS determined that one of
                   these relationships was an actual conflict because the offeror could be
                   called upon to review the services of its parent company.
                   Two-thirds of offerors either were Medicare claims processors
                   or had financial ties to claims processors
                   Two offerors were Medicare claims processors and six offerors had parent
                   or sister companies that were claims processors. One of these six offerors
                   had two parent companies that processed Medicare claims. The other five
                   offerors were owned by parent companies that also owned subsidiaries
                   that processed Medicare claims (i.e., the offeror and subsidiary were sister
                   companies).



Conflicts and Financial Relationships Among Potential Zone Program Integrity Contractors (OEI-03-10-00300)   10
                   Neither the offerors nor CMS considered these eight relationships as
                   actual conflicts. Some offerors determined that these relationships did not
                   create actual conflicts because the offerors would be performing program
                   integrity functions outside the zone where they or their parent and sister
                   companies processed Medicare claims. Therefore, the offerors would not
                   be performing program integrity functions on Medicare claims processed
                   by related companies. CMS staff also reported that they do not consider
                   an affiliation with a Medicare claims processor to be an actual conflict
                   because the ZPIC is not investigating the claims processor, but instead is
                   investigating the providers that submit claims.
                   Half of the offerors had existing Medicare program integrity
                   contracts with CMS
                   Six of the twelve offerors stated they had existing program integrity
                   contracts with CMS. Four of these six had PSC contracts with CMS, one
                   had a MEDIC contract with CMS, and one had both a PSC and a MEDIC
                   contract. None of these relationships were considered to be actual
                   conflicts by either the offerors or CMS.
                   One offeror had a qualified independent contract (QIC) with CMS.15 This
                   offeror did not consider this relationship to be an actual conflict because
                   the scope of the QIC work was outside the ZPIC geographic zone. Four
                   offerors had sister companies with CMS contracts to operate as quality
                   improvement organizations (QIO) or QICs.16 Two of these offerors did
                   not consider these relationships to be actual conflicts. Another offeror
                   considered this relationship as a possible conflict. However, CMS
                   determined it to be an actual conflict because the QIC (sister company)
                   could be called upon to review the work of the offeror. The remaining
                   offeror listed this relationship as a financial interest but did not address
                   whether it was any type of conflict.
                   Offerors subcontracted with each other as well as with entities
                   that had a contractual relationship with CMS
                   All 12 offerors stated they would use subcontractors to support their work.
                   Eight offerors had subcontracting agreements with other offerors. Ten
                   offerors had subcontracting agreements with entities that had existing
                   relationships with CMS. These subcontractors included Medicare claims
                   processors, PSCs, QIOs, and information technology providers.




                   15
                     A QIC conducts the second level of appeal when a beneficiary or provider appeals certain
                   decisions related to a Medicare claim.

                   16
                    A QIO monitors the appropriateness, effectiveness, and quality of care provided to 

                   Medicare beneficiaries.


Conflicts and Financial Relationships Among Potential Zone Program Integrity Contractors (OEI-03-10-00300)   11
                       Offerors, subcontractors, and CMS identified 1,919
                       business and contractual relationships as possible
                       conflicts and 16 as actual conflicts
                       Actual Conflicts. Offerors, subcontractors, and CMS identified 16 actual
                       conflicts out of 1,935 reported conflicts. CMS considered all 16 as
                       mitigated. Ten of the 16 actual conflicts belonged to offerors and their
                       subcontractors that were awarded ZPIC contracts. All 16 actual conflicts
                       were “impaired objectivity” conflicts, meaning that the offeror or
                       subcontractor could be in the position of evaluating work performed or
                       associated with its own company. Table 1 provides the number and types
                       of conflicts for offerors and their subcontractors. Appendix B shows the
                       number and type of conflicts for individual offerors.

Table 1: Number and Types of Conflicts Among Offerors and Subcontractors

                                                             Number of Actual                 Number of             Total Number of
 Offerors and Subcontractors
                                                                    Conflicts          Possible Conflicts                  Conflicts

                               Offerors                                8                         22                        30
 Offerors Awarded
 ZPIC Contracts                Subcontractors                          2                       1,419                     1,421
 (5 offerors with
 38 subcontractors)
                               Subtotal                               10                       1,441                     1,451


                               Offerors                                5                        211                        216
 Offerors Not
 Awarded ZPIC
 Contracts                     Subcontractors                          1                        267                        268
 (13 offerors with
 47 subcontractors)
                               Subtotal                                6                        478                        484


                               Offerors                               13                        233                        246

 All Offerors
 (18 offerors with             Subcontractors                          3                       1,686                     1,689
 85 subcontractors)
                                  Total                               16                       1,919                     1,935

Source: OIG analysis of ZPIC offerors’ Organizational Conflict of Interest Certificates and CMS documentation for Zones 1, 2, 4, 5,
and 7, 2011.



                       Fourteen of the sixteen actual conflicts involved offerors and
                       subcontractors with business or contractual relationships with Parts C and
                       D plan sponsors. For instance, one offeror’s parent company had a
                       contract to offer technology-related implementation and operations work
                       to a company that was a Part D plan sponsor. In another case, an offeror’s
                       parent company owned Parts C and D plans operating in all 50 States.
                       Another subcontractor’s parent company operated as both Parts C and D
                       plan sponsors in the zone where the offeror submitted its proposal.


Conflicts and Financial Relationships Among Potential Zone Program Integrity Contractors (OEI-03-10-00300)                            12
                   One conflict involved an offeror whose parent company also owned a
                   company acting as a QIC for CMS. According to CMS, this created an
                   actual conflict because the QIC could be called upon to review the work of
                   the offeror. Another actual conflict involved an individual whose spouse
                   worked for a provider in the zone where the ZPIC was to perform work.
                   In a few cases, CMS disagreed with offerors’ and subcontractors’ own
                   assessments of their conflicts. For example, CMS required that an offeror
                   characterize its ties to a Parts C and D plan sponsor as actual conflicts. In
                   this case, the offeror provided information about the relationships but did
                   not consider them to be actual or possible conflicts.
                   Possible Conflicts. Of the 1,935 total conflicts reported, 1,919 were
                   possible conflicts. For example, one offeror’s parent company also owned
                   a Medicare Administrative Contractor (MAC) that was processing
                   Medicare claims in the same zone where the offeror would be evaluating
                   claims. The offeror stated that the situation only presented the appearance
                   of a conflict for two reasons: (1) although ZPICs analyze provider claims
                   that may have been processed by a MAC, they do not evaluate how MACs
                   process those claims; and (2) the company’s corporate structure
                   guaranteed its independence.
                   In another case, an offeror disclosed a possible conflict regarding an
                   individual who sat on its board of directors. This individual’s spouse was
                   a vice president at a provider in the same zone where the contractor would
                   be evaluating claims. This could present a possible conflict if the offeror
                   evaluated this provider’s claims.
                   A single subcontractor associated with 3 offerors that were awarded ZPIC
                   contracts accounted for 1,231 of the 1,919 possible conflicts in this
                   category. The subcontractor’s contractual relationships were characterized
                   differently across the three zones. In two zones, the subcontractor listed
                   its contracts with providers and health care plans as possible conflicts
                   because the providers and health care plans may come under the scrutiny
                   of the ZPIC. Most of these conflicts stemmed from the company’s
                   contracts with providers or health insurance plans. Both types of
                   relationships create a possible conflict because ZPICs could review the
                   providers’ and health plans’ services. However, in a third zone, the
                   subcontractor provided a list of its contracts with providers that could also
                   come under the scrutiny of the ZPIC, but did not characterize them as any
                   type of conflict.




Conflicts and Financial Relationships Among Potential Zone Program Integrity Contractors (OEI-03-10-00300)   13
                         The most common strategy proposed to mitigate
                         conflicts was to impose restrictions on information
                         and resource sharing within the offeror’s or
                         subcontractor’s company
                         The RFP requires that offerors and subcontractors mitigate all conflicts of
                         interest. For some of the conflicts, offerors proposed more than one
                         mitigation strategy. Table 2 shows the mitigation strategies proposed by
                         offerors and subcontractors and, in a very few instances, strategies
                         suggested by CMS for offerors’ consideration. According to CMS, CMS
                         made a complete assessment of conflicts and mitigation strategies for all
                         offerors that were awarded ZPIC contracts and the contracting officer
                         made a determination in each case that all conflicts were adequately
                         mitigated prior to the ZPIC contract award.
                         The mitigation strategy most frequently proposed involved various
                         methods for restricting access to certain company information and/or
                         resources. For example, offerors and subcontractors implemented
                         measures designed to ensure that only employees performing ZPIC-related
                         work could access these data. The goal was to make sure other divisions
                         of the company did not have access to sensitive data or proprietary
                         information. This type of mitigation strategy was also the most common
                         among offerors (and their subcontractors) that won ZPIC contracts.

Table 2: Frequency of Mitigation Strategies for Conflicts Among Offerors, Subcontractors,
and CMS in Zones 1, 2, 4, 5 and 7
                                                                                                        Number of Times Mitigation
  Mitigation Strategy
                                                                                                           Strategy Was Proposed

  Restrictions on sharing information and resources within the company                                                              1,567

  Separation of corporate, organizational, or management structure                                                                    501

  Limitations or restrictions on scope of work (including recusal)                                                                    378

  Elimination of conflicting relationship                                                                                               26

  Use of subcontractor or another ZPIC                                                                                                  25

  Divestiture                                                                                                                           11

  Audits                                                                                                                                 3

             1
     Total                                                                                                                          2,511

Source: OIG analysis of ZPIC offerors’ Organizational Conflict of Interest Certificates and CMS documentation for Zones 1, 2, 4, 5,
and 7, 2011.
1
  Total number of mitigation strategies is greater than the total number of conflicts because offerors and subcontractors proposed more than
one mitigation strategy for some conflicts.

                         The level of specificity in the mitigation strategies varied. For example,
                         one subcontractor asserted that “there is no sharing of Medicare
                         beneficiary or claim data” between the subcontractor and its affiliate.

  Conflicts and Financial Relationships Among Potential Zone Program Integrity Contractors (OEI-03-10-00300)                              14
                   Another subcontractor offered a more detailed mitigation strategy, which
                   included methods to prevent clients from accessing other clients’ data.
                   That subcontractor proposed creating secure electronic platforms to house
                   data in a way that allowed only the subcontractor’s clients and the
                   personnel working for those clients to have access.
                   Another offeror’s detailed information security plan included methods to
                   ensure that information gathered by the offeror would be inaccessible to its
                   affiliated company. The mitigation strategy called for the offeror and its
                   affiliated company to maintain separate information technology networks,
                   separate human resources and payroll systems, password protection for
                   information technology systems, and a security system to make work
                   spaces accessible only to employees with proper badges.
                   Offerors and subcontractors often cited the separation of
                   corporate, organizational, and management structures as
                   mitigation strategies
                   In some cases, offerors stated that their current or future corporate,
                   organization, and management structures mitigated any conflicts. For
                   example, one offeror had a subcontractor that was already working as a
                   QIC. To mitigate the conflict, the subcontractor created a separate
                   business unit within its organization to isolate the QIC work from the
                   ZPIC work. In another case, a subcontractor had individuals on its board
                   of directors who also sat on the board of directors of sister companies that
                   offered Medicare Parts C and/or D plans and also functioned as claims
                   processors. The subcontractor ensured that its board of directors’
                   day-to-day decisionmaking did not involve the ZPIC functions.
                   Offerors and subcontractors sometimes cited limitations or
                   restrictions on the scope of their work to mitigate conflicts
                   In some cases, offerors reported that their business and contractual
                   relationships with companies that have Medicare claims processing or
                   Parts C and/or D contracts could create possible conflicts. To address one
                   such possible conflict, an offeror stated that the ZPIC work it would be
                   performing was outside the geographic area (zone) in which the parent
                   company’s Part C and Part D plans were offered. Another offeror stated
                   that the company with a claims processing contract only provided it with
                   technology support services.
                   Offerors and subcontractors sometimes took more proactive measures to
                   address conflicts among key personnel. For example, in a number of
                   cases, key personnel had personal relationships with individuals who
                   worked for providers in the zone where the ZPIC work was to be
                   performed. Offerors and subcontractors required that those individuals be
                   prohibited from working on or taking actions that involved those

Conflicts and Financial Relationships Among Potential Zone Program Integrity Contractors (OEI-03-10-00300)   15
                   providers. For two conflicts involving an offeror’s and subcontractor’s
                   key personnel, CMS recommended recusal to mitigate conflicts.
                   CMS does not have a written policy for reviewing
                   conflict and financial interest information submitted by
                   offerors, and the submitted information was not
                   always consistent or complete
                   CMS’s process for reviewing conflict and financial interest information is
                   neither outlined in a written policy nor standardized through the use of
                   checklists or other methods. According to CMS staff, CMS performs a
                   preliminary review of all the offerors’ certificates upon initial receipt to
                   determine whether the requirements in the RFP are met. More detailed
                   reviews of certificates and exchanges are performed on offerors in the
                   competitive range. A final review and exchange are performed before the
                   ZPIC contract is awarded.
                   However, offerors and their subcontractors often failed to provide all the
                   information required by the RFP, even after CMS reviewed the initial
                   submission of certificates. Fifteen subcontractors (related to four offerors)
                   never submitted the required Organizational Conflict of Interest
                   Certificates. These four offerors were not awarded ZPIC contracts.
                   Our examination of CMS’s documentation associated with its review of
                   certificates did not reveal documentation showing that CMS conducted a
                   preliminary review of three offerors’ and four of their subcontractors’
                   certificates. In addition, there was no consistent documentation detailing
                   whether CMS reviewed every business and contractual relationship and
                   financial interest that offerors and subcontractors reported. CMS also
                   lacked consistent documentation showing whether its determination
                   agreed or disagreed with offerors’ and subcontractors’ classification of
                   business and contractual relationships as possible conflicts.
                   It is crucial that not only conflict but financial interest information (e.g.,
                   percentage of ownership in any other entity, income generated from other
                   sources) be complete because CMS can use this information to identity
                   conflicts of offerors and subcontractors. For instance, an offeror or a
                   subcontractor may submit financial interest information that it does not
                   report as an actual conflict, but CMS’s review of the details of this
                   information may reveal the relationship to be an actual conflict.
                   Some offerors and their subcontractors did not distinguish
                   between actual and possible conflicts
                   Offerors and subcontractors reported 173 conflicts without specifying
                   whether they were actual or possible conflicts. After reviewing the
                   information provided by offerors and subcontractors, we could not


Conflicts and Financial Relationships Among Potential Zone Program Integrity Contractors (OEI-03-10-00300)   16
                   determine which of these were actual conflicts. For example, some
                   offerors listed several conflicts under a single heading, such as “actual or
                   apparent conflicts” or “actual, apparent, or potential,” without clarifying
                   which were actual conflicts and which were apparent. In contrast, other
                   offerors and subcontractors provided a list of relationships and clearly
                   indicated which were actual conflicts.
                   Offerors and their subcontractors did not always provide all
                   the required information regarding their financial interests in
                   other entities
                   Many offerors and their subcontractors did not provide all the information
                   required by the RFP in their original Organizational Conflict of Interest
                   Certificates. Two offerors and thirty-two subcontractors did not report any
                   information regarding their financial interests in other entities. They also
                   did not state, as others did, that they had no any financial interests in other
                   entities.
                   Another 7 offerors and 32 subcontractors did not provide all the required
                   information regarding their financial interests. Some offerors and
                   subcontractors simply stated whether they received income from other
                   sources without including the amounts. Others provided only partial
                   information regarding their contracts with health insurance organizations
                   and providers of Medicare- or Medicaid-reimbursed services. For those
                   contracts, the RFP requires disclosure of income amount, period of
                   performance, and type of work performed. For a number of these offerors
                   and subcontractors, information was still missing or incomplete even after
                   CMS requested revised Organizational Conflict of Interest Certificates.
                   In some cases, offerors and subcontractors did not seem to interpret the
                   RFP requirements in the same way. For example, offerors and
                   subcontractors provided varying levels of detail on their existing contracts
                   with CMS. Some disclosed all three items that the RFP required for
                   contracts with health insurers and providers (income amount, period of
                   performance, and type of work performed). Other offerors and
                   subcontractors did not provide all of these details.
                   Offerors and their subcontractors did not always provide all
                   the required information regarding key personnel’s financial
                   interests in other entities
                   The RFP requires that offerors disclose not only the financial interests of
                   the company, but also the financial interests of key personnel. Two
                   offerors and twenty-seven subcontractors did not report any information
                   regarding their key personnel’s financial interests in other entities even
                   after CMS requested revised Organizational Conflict of Interest



Conflicts and Financial Relationships Among Potential Zone Program Integrity Contractors (OEI-03-10-00300)   17
                   Certificates. This does not include those offerors and subcontractors that
                   stated their key personnel had no financial interests in other entities.
                   Another 14 offerors and 17 subcontractors did not provide all of the
                   required information regarding key personnel’s financial interests. For
                   example, some offerors and subcontractors stated that key personnel were
                   employed elsewhere, but did not provide their income amounts. Some
                   stated that key personnel held investments, but did not provide the
                   amounts held.
                   Some offerors seemed to have different interpretations of the scope of
                   these disclosure requirements. For their key personnel, some offerors and
                   subcontractors addressed only financial interests that they believed
                   presented conflicts. Others addressed all financial interests, regardless of
                   whether they considered them conflicts.




Conflicts and Financial Relationships Among Potential Zone Program Integrity Contractors (OEI-03-10-00300)   18
                   CONCLUSION AND RECOMMENDATIONS
                   Because ZPICs perform program integrity functions for CMS, it is crucial
                   that they be free from conflicts of interest that could affect their work.
                   Conflicts of interest could introduce bias, which in turn could influence
                   ZPICs’ efforts to reduce fraud, waste, and abuse in the Medicare program.
                   Contractors and CMS have the responsibility to ensure that conflicts are
                   identified and mitigated.
                   According to the ZPIC RFP, offerors and their subcontractors are required
                   to identify their conflicts and their financial interests in other entities.
                   However, some offerors and subcontractors failed to provide all the
                   requisite information regarding financial interests in other entities.
                   Additionally, descriptions of their conflicts of interest the offerors and
                   subcontractors presented were often unclear. Some offerors and
                   subcontractors did not distinguish actual conflicts from possible conflicts.
                   Currently, CMS does not use a written policy or standard checklist to
                   facilitate its review of Organizational Conflict of Interest Certificates. In
                   addition, we found no documentation showing that CMS conducted a
                   review of some offerors’ and subcontractors’ certificates. In some cases,
                   even after CMS had requested revised certificates, required conflict and
                   financial interest information was still missing.
                   The initial submission of certificates should contain clear, consistent, and
                   complete information across offerors and subcontractors so that CMS has
                   accurate information when addressing conflicts. The requirements in the
                   RFP should be more clearly and thoroughly delineated.
                   The existence of conflicts of interest does not necessarily indicate that
                   improper activity is taking place among CMS contractors. However, the
                   public trust in CMS and its contractors could come into question if
                   conflicts are not explicitly and openly disclosed as well as properly
                   mitigated. Therefore, to encourage an environment of transparency and
                   accountability among contractors, we recommend that CMS:
                   Provide Clearer Guidance in the RFP to Offerors and
                   Subcontractors Regarding Which Business and Contractual
                   Relationships Should Be Identified as Actual Conflicts and
                   Which Should Be Identified as Possible Conflicts (i.e.,
                   Apparent or Potential Conflicts)
                   Require Offerors and Subcontractors To Distinguish Those
                   Business and Contractual Relationships That They Deem To
                   Be Actual Conflicts From Those That Are Possible Conflicts


Conflicts and Financial Relationships Among Potential Zone Program Integrity Contractors (OEI-03-10-00300)   19
                   (i.e., Apparent or Potential Conflicts) in Their Organizational
                   Conflict of Interest Certificates
                   State Whether Offerors and Subcontractors Need To Report
                   Income Amounts, Periods of Performance, and Types of Work
                   Performed for Their Contracts With CMS and Income Amounts
                   Generated From Key Personnel’s Other Employment
                   Create a Standardized Format for Reporting Information in the
                   Organizational Conflict of Interest Certificate and Require Its
                   Use by Offerors and Subcontractors
                   Develop a Formal, Written Policy Outlining How Organizational
                   Conflicts of Interest Certificates Are To Be Reviewed by CMS

                   This policy should include:
                        	 guidance on what additional information CMS staff should collect
                           regarding offerors and when they should collect it,
                        	 the use of a standardized checklist to ensure that all required
                           information has been submitted by each offeror in its
                           Organizational Conflict of Interest Certificates, and
                        	 documentation requirements showing that a complete review of
                           each offeror’s Organizational Conflict of Interest Certificates was
                           conducted and the outcome and resolution of those reviews.




Conflicts and Financial Relationships Among Potential Zone Program Integrity Contractors (OEI-03-10-00300)   20
                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   In its comments, CMS stated that it has had considerable experience
                   addressing conflict-of-interest matters. CMS believes that receiving the
                   magnitude of potential conflict-of-interest issues outlined in OIG’s report
                   is a direct result of CMS’s consistent efforts of raising awareness of
                   conflict-of-interest issues and working with the contractor community to
                   identify possible conflicts.
                   CMS concurred in part with our first two recommendations. Regarding
                   our first recommendation, CMS stated that it believes it is more
                   appropriate to limit terms (“actual or potential conflicts of interest”) to
                   those exclusively identified in the FAR. CMS also stated that its draft
                   conflict-of-interest review policy contains standard RFP language to be
                   used in all procurements. Regarding the second recommendation, that
                   offerors should identify their relationships as “potential or actual”
                   conflicts, CMS agreed to consider language to request that the offeror
                   classify its conflicts as “potential” and/or “actual.” OIG continues to
                   recommend that CMS offer guidance in the RFP regarding which business
                   and contractual relationships should be identified as actual conflicts and
                   which should be identified as other types of conflicts. OIG recommends
                   that CMS request that offerors distinguish between their actual and
                   potential conflicts. This guidance would allow for clearer and more
                   consistent submissions regarding conflicts across offerors and their
                   subcontractors.
                   CMS concurred with our last three recommendations. CMS shared an
                   excerpt from its draft conflict-of-interest policy, which, it stated, addresses
                   our third recommendation regarding the reporting of certain types of financial
                   information in certificates. OIG requests that CMS, in its final
                   management decision, clearly indicate how its new policy and the ZPIC
                   RFP will address our fourth and fifth recommendations. In addition, we
                   ask that CMS provide information on the new standardized format that
                   offers and subcontractors will be required to use when reporting
                   information in certificates.
                   CMS suggested that the report state that all substantive actual or potential
                   conflicts were mitigated for ZPIC awardees to the satisfaction of the
                   Contracting Officer and that these conflicts were addressed and mitigated
                   prior to the award. While CMS states that all conflicts were mitigated to
                   the satisfaction of the Contracting Officer, GAO found in favor of two bid
                   protestors that questioned the level of detail CMS accepted in an offeror’s
                   plans to mitigate a conflict of interest. With regard to the mitigation plan


Conflicts and Financial Relationships Among Potential Zone Program Integrity Contractors (OEI-03-10-00300)   21
                   CMS originally accepted, GAO found “there [were] no details explaining
                   how any of the plans would work or when they would, or could, be
                   implemented. This lack of detail is significant given the inherently
                   complex nature of the proposed strategies ….”
                   CMS also clarified that a preliminary or cursory review for three offerors
                   and four of their subcontractors' certificates was conducted even though
                   OIG found no documentation of this. CMS stated that no documentation
                   was included in the file because it is not required for offerors excluded
                   from the competitive range for award. However, during the review, OIG
                   found documentation regarding the review of certificates for offerors that
                   were not in the competitive range for award. OIG recommends that
                   although not required, consistent documentation of any and all reviews
                   should be maintained.
                   The full text of CMS’s comments is provided in Appendix C.




Conflicts and Financial Relationships Among Potential Zone Program Integrity Contractors (OEI-03-10-00300)   22
                   APPENDIX A
                   Conflict-of-Interest Requirements Established in the Zone Program
                   Integrity Contractor Request for Proposals

                   Section H.2
                   a. General: It is essential that the Contractor and the services provided to
                   Medicare beneficiaries under this contract be free, to the greatest extent
                   possible, of all conflicts of interest. Except as provided below, the
                   Contracting Officer shall not enter into a contract with an Offeror or
                   maintain a contract with a Contractor that the Contracting Officer
                   determines has, or has the potential for, an unresolved organizational
                   conflict of interest.
                   b. Definitions: As used in this subpart, the following definitions apply:
                             1. Financial relationship means--
                                       (a) A direct or indirect ownership or investment interest
                                       (including an option or nonvested interest) in any entity
                                       that exists through equity, debt, or other means and
                                       includes any indirect ownership or investment interest no
                                       matter how many levels removed from a direct interest; or
                                       (b) A compensation arrangement with an entity.
                             2. Organizational conflict of interest -- has the meaning given at
                             FAR 9.501, as follows:
                             “Organizational conflict of interest” means that because of other
                             activities or relationships with other persons, a person is unable or
                             potentially unable to render impartial assistance or advice to the
                             Government, or the person's objectivity in performing the contract
                             work is or might be otherwise impaired, or a person has an unfair
                             competitive advantage.
                             For purposes of the Medicare Integrity Program, the activities and
                             relationships described include those of the Offeror or Contractor
                             itself and other business related to it and those of officers, directors
                             (including medical directors), managers, and subcontractors.
                   c.        Conflict of interest identification:
                             1. An organizational conflict of interest exists, or the potential for
                             a conflict exists, if -
                                       (a) The Offeror or Contractor is an entity that-




Conflicts and Financial Relationships Among Potential Zone Program Integrity Contractors (OEI-03-10-00300)   23
                                                 (1) Provides, insures, or pays for health benefits,
                                                 with the exception of health plans provided as the
                                                 entity’s employee fringe benefit; or
                                                 (2) Conducts audits of health benefit payments or
                                                 cost reports; or
                                                 (3) Conducts statistical analysis of health benefit
                                                 utilization; or
                                                 (4) Would review or does review, under the
                                                 contract, Medicare services furnished by a provider
                                                 or supplier that is a direct competitor of the Offeror
                                                 or Contractor; or
                                                 (5) Prepared work or is under contract to prepare
                                                 work that would be reviewed under the Medicare
                                                 program integrity contract; or
                                                 (6) Is affiliated, as that term is explained in FAR
                                                 19.101, with a provider or supplier to be reviewed
                                                 under the contract.
                                       (b) The Offeror or Contractor has a present, or known
                                       future, direct or indirect financial relationship with an
                                       entity described in paragraph H.2.c.1.(a) above.
                                       A financial relationship may exist either--
                                                 (1) Through an Offeror's or Contractor's parent
                                                 companies, subsidiaries, affiliates, subcontractors,
                                                 or current clients; or
                                                 (2) From the activities and relationships of the
                                                 officers, directors (including medical directors), or
                                                 managers of the Offeror or Contractor and may be
                                                 either direct or indirect. An Officer, director, or
                                                 manager has an indirect financial relationship if an
                                                 ownership or investment interest is held in the name
                                                 of another but provides benefits to the Officer,
                                                 director, or manager.
                                                 Examples of indirect financial relationships are, but
                                                 are not limited to, holdings in the name of a spouse
                                                 or dependent child of the Officer, director, or
                                                 manager and holdings of other relatives who reside
                                                 with the Officer, director, or manager.



Conflicts and Financial Relationships Among Potential Zone Program Integrity Contractors (OEI-03-10-00300)   24
                             2. The Contracting Officer may determine that an Offeror or
                             Contractor has an organizational conflict of interest, or the
                             potential for a conflict exists, based on the following:
                                       (a) Apparent organizational conflicts of interest. An
                                       apparent organizational conflict of interest exists if a
                                       prudent business person has cause to believe that the
                                       Offeror or Contractor would have a conflict of interest in
                                       performing the requirements of a contract under this
                                       subpart. No inappropriate action by the Offeror or
                                       Contractor is necessary for an apparent organizational
                                       conflict of interest to exist.
                                       (b) Other contracts and grants with the Federal
                                       Government.
                             3. Post-award conflicts of interest.
                                       (a) In addition to the conflicts identified in paragraph
                                       H.2.c.1. of this section, the Contracting Officer considers
                                       that a conflict of interest has occurred if during the term of
                                       the contract--
                                                 (1) The Contractor receives any fee, compensation,
                                                 gift, payment of expenses, or any other thing of
                                                 value from any entity that is reviewed, audited,
                                                 investigated, or contacted during the normal course
                                                 of performing activities under the Medicare
                                                 integrity program contract; or
                                                 (2) The Contracting Officer determines that the
                                                 Contractor's activities are creating a conflict of
                                                 interest.
                                       (b) In the event the Contracting Officer determines that a
                                       conflict of interest exists during the term of the contract,
                                       the Contracting Officer may take action including, but not
                                       limited to,
                                                 (1) Not renewing the contract for an additional
                                                 term;
                                                 (2) Modifying the contract; or
                                                 (3) Terminating the contract.
                             4. Exception. The Contracting Officer may contract with an
                             Offeror or Contractor that has an unresolved conflict of interest if



Conflicts and Financial Relationships Among Potential Zone Program Integrity Contractors (OEI-03-10-00300)   25
                             the Contracting Officer determines that it is in the best interest of
                             the Government to do so.
                             5. Offeror's or Contractor's responsibility with regard to
                             subcontractors. An Offeror or Contractor is responsible for
                             determining whether an organizational conflict of interest exists in
                             any of its proposed or actual subcontractors at any tier and is
                             responsible for ensuring that the subcontractors have mitigated any
                             conflict of interest or potential conflict of interest.
                             A Contractor shall maintain documentation necessary to support its
                             determination that its subcontractors have mitigated any conflict or
                             potential conflict. A Contractor may require its subcontractors to
                             follow the procedures for identifying, evaluating and disclosing
                             conflicts of interest and potential conflicts of interest as contained
                             herein.
                   d. Disclosure: Contractors must disclose all actual, apparent and potential
                   conflicts of interest to the Contracting Officer during the term of the
                   contract in accordance with paragraph H.2.d.1. below. The Contractor
                   shall have programs in place to identify, evaluate and mitigate all actual,
                   apparent and potential conflicts of interest that preclude, or would appear
                   to preclude, the Contractor from rendering impartial assistance or advise
                   on work performed for this contract. CMS protects disclosed proprietary
                   information as allowed under the Freedom of Information Act (5 U.S.C.
                   552). The Contracting Officer requires signed statements from CMS
                   personnel with access to proprietary information that prohibits personal
                   use during the procurement process and term of the contract. The
                   Contractor’s Organizational Conflict of Interest Certificate, that includes
                   the Contractor’s plan to mitigate all actual, apparent and potential conflicts
                   of interest (d.1.(c)) identified during the term of the contract and
                   certification that all work to be performed under this contract is free of
                   unresolved conflicts of interest, is incorporated by reference at Attachment
                   J.11.
                             1. Certificate Requirements. Offerors that wish to be eligible for
                             the award of a Program Integrity contract under this subpart and
                             Program Integrity Contractors, must submit, at times specified in
                             paragraph H.2.d.2. of this section, an Organizational Conflicts of
                             Interest Certificate. The Certificate must contain the information
                             specified in paragraphs H.2.d.1.(a) through (h) of this section as
                             follows:




Conflicts and Financial Relationships Among Potential Zone Program Integrity Contractors (OEI-03-10-00300)   26
                                       (a) A description of all business or contractual relationships
                                       or activities that may be viewed by a prudent business
                                       person as a conflict of interest.
                                       (b) A description of the methods the Offeror or Contractor
                                       will apply to mitigate any situations listed in the Certificate
                                       that could be identified as a conflict of interest.
                                       (c) A description of the Offeror's or Contractor's program to
                                       monitor its compliance and the compliance of its proposed
                                       and actual subcontractors with the conflict of interest
                                       requirements as identified in the relevant solicitation.
                                       (d) An affirmation, using language provided below, signed
                                       and dated by an official authorized to bind the Contractor:
                                                 I, (Name and Title), certify that to the best of my
                                                 knowledge and belief: 1) I am an official authorized
                                                 to bind the entity; 2) the information contained in
                                                 the Organizational Conflict of Interest Certificate is
                                                 true and accurate as of (Date); and 3) I understand
                                                 that the Contracting Officer may consider any
                                                 deception or omission in this Certificate to be
                                                 grounds for non-consideration for contract award,
                                                 modification or non-renewal or termination of the
                                                 current contract, and/or other contract or legal
                                                 action.
                                       An Offeror or Contractor shall submit an affirmation
                                       certifying the information to be true and accurate as of the
                                       date the proposal is submitted. Upon award, the Contractor
                                       shall submit an updated affirmation, if necessary, certifying
                                       the information to be accurate as of the date of contract
                                       award.
                                       (e) Corporate and organizational structure.
                                       (f) Financial interests in other entities, including the
                                       following:
                                                 (1) Percentage of ownership in any other entity.
                                                 (2) Income generated from other sources.
                                                 (3) A list of current or known future contracts or
                                                 arrangements, regardless of size, with any--




Conflicts and Financial Relationships Among Potential Zone Program Integrity Contractors (OEI-03-10-00300)   27
                                                          (i) Insurance organization or subcontractor
                                                          of an insurance organization; or
                                                          (ii) Providers or suppliers furnishing health
                                                          services for which payment may be made
                                                          under the Medicare or Medicaid program.
                                                 (4) In the case of contracts or arrangements
                                                 identified in accordance with paragraph H.2.d.1.
                                                 (f)(3) of this section, the dollar amount of the
                                                 contracts or arrangements, the type of work
                                                 performed, and the period of performance.
                                       (g) The following information for all of the Offeror's or
                                       Contractor’s officers, directors (including medical
                                       directors), and managers who would be, or are involved
                                       with, the performance of this Medicare Integrity Program
                                       contract:
                                                 (1) The information required under paragraph
                                                 H.2.d.1. (a) of this section.
                                                 (2) The information specified in paragraphs
                                                 H.2.d.1.(f) of this section.
                                       (h) A list of all subcontractors used, at any tier, in the
                                       performance of the contract.
                             2. When disclosure is made. The Organizational Conflict of
                             Interest Certificate is submitted—
                                       (a) With the contractor’s task order proposal, unless
                                       otherwise identified in the task order solicitation;
                                       (b) When the Contracting Officer requests a revision in the
                                       Certificate;
                                       (c) With the submission of the ZPIC proposal and annually
                                       on October 31st thereafter; and
                                       (d) 45 days or less (as the information becomes known)
                                       before any change in the information submitted in
                                       accordance with paragraph H.2.d.1. Only changed
                                       information shall be submitted.




Conflicts and Financial Relationships Among Potential Zone Program Integrity Contractors (OEI-03-10-00300)   28
                   Section L.18.A
                   In order to be eligible for award of a contract the Government must ensure
                   that an Offeror and its proposed subcontractors are free, to the greatest
                   extent possible, of all conflicts of interest. Therefore, the Offeror and its
                   subcontractors are required to submit the disclosure of information
                   contained in contract section H.2 Conflict of Interest, in order to be
                   considered for award. Failure to submit the required information may
                   deem an Offeror’s proposal to be non-responsive to the solicitation.




Conflicts and Financial Relationships Among Potential Zone Program Integrity Contractors (OEI-03-10-00300)   29
                   APPENDIX B
                   Number and Type of Conflicts by Individual Offerors
                                                                                       Actual             Possible           Total
                     Offerors and Subcontractors
                                                                                     Conflicts            Conflicts       Conflicts
                                                    Offeror 1                                0                    0               0
                                                     Subcontractors                          0                    7               7
                                                    Offeror 2                                4                   13              17
                                                     Subcontractors                          0                 486             486
                                                    Offeror 3                                0                    0               0
                                                     Subcontractors                          0                   11              11
                     Offerors Awarded               Offeror 4                                4                    9              13
                     ZPIC Contracts                  Subcontractors                          2                 915             917
                                                    Offeror 5                                0                    0               0
                                                     Subcontractors                          0                    0               0
                                                    Offerors subtotal                        8                   22              30
                                                    Subcontractors
                                                                                               2               1,419           1,421
                                                    subtotal
                                                     Subtotal                                 10               1,441           1,451
                                                    Offeror 6                                  1                  26              27
                                                     Subcontractors                            0                  39              39
                                                    Offeror 7                                  0                  25              25
                                                     Subcontractors                            0                   5               5
                                                    Offeror 8                                  0                  18              18
                                                     Subcontractors                            0                   6               6
                                                    Offeror 9                                  0                  28              28
                                                     Subcontractors                            0                  49              49
                                                    Offeror 10                                 0                   4               4
                                                     Subcontractors                            0                   5               5
                                                    Offeror 11                                 0                   7               7
                                                     Subcontractors                            1                  29              30
                                                    Offeror 12                                 0                   5               5
                                                     Subcontractors                            0                   0               0
                     Offerors Not                   Offeror 13                                 0                  18              18
                     Awarded ZPIC                    Subcontractors                            0                  34              34
                     Contracts
                                                    Offeror 14                                 0                  34              34
                                                     Subcontractors                            0                  53              53
                                                    Offeror 15                                 0                   0               0
                                                     Subcontractors                            0                   0               0
                                                    Offeror 16                                 4                  21              25
                                                     Subcontractors                            0                   2               2
                                                    Offeror 17                                 0                   2               2
                                                     Subcontractors                            0                  41              41
                                                    Offeror 18                                 0                  23              23
                                                     Subcontractors                            0                   4               4
                                                    Offerors subtotal                          5                 211             216
                                                    Subcontractors
                                                                                               1                 267             268
                                                    subtotal
                                                      Subtotal                                 6                 478             484
                     All Offerors                       Total                                 16               1,919           1,935
                   Source: Office of Inspector General analysis of Zone Program Integrity Contractor offerors’ Organizational Conflict
                   of Interest Certificates and Centers for Medicare & Medicaid Services’ documentation for Zones 1, 2, 4, 5, and 7,
                   2011.

Conflicts and Financial Relationships Among Potential Zone Program Integrity Contractors (OEI-03-10-00300)                          30
                        APPENDIXC
                        Agency Comments




              (:!I-	
                ~~ ..r'.VlC«.t./r.;,




                                        DEPARTMENT OF HEALTH & HUMAN SERVICES                                    Centers for Medicare & Medicaid Services


                                                                                                                 Administrator
                                                                                                                 Washington, DC 20201




                                DATE: 	         MAY 0 3 2012
                                TO: 	           Daniel R. Levinson 

                                                Inspector General 

                                                                   /S/
                                FROM: 	         MaJ\btn TlWMncr 

                                                Acting Admin\strator 


                                SUBJECT:        Office of Inspector General (OIG) Draft Report: "Conflicts and Financial 

                                                Relationships among Potential ZPIC Contractors" (OEI-03-1 0-00300) 



                                Thank you for the opportunity to review and comment on the Office of Inspector General 

                                (OIG) draft report titled, "Conflicts and Financial Relationships Among Potential ZPIC 

                                Contractors." The purpose of this report was to determine conflicts of interest identified 

                                by offerors during the Zone Program Integrity Contractor (ZPIC) contracting process, 

                                strategies otTerors proposed to mitigate conflicts of interest, whether offerors provided 

                                complete information on conflicts, and whether the Centers for Medicare & Medicaid 

                                Services (CMS) reviewed this information. 


                                 As the report indicates, CMS ensures that its contractors are free from conflicts of interest
                                 or have taken the appropriate steps to mitigate any potential conflicts. CMS has had
                                 considerable experience addressing Organi zational Conflict of Interest (OCI) matters.
                                 Since 1999, with the early implementation of the Medicare Integrity Program (MIP),
                                 CMS was forward-looking enough to consider OCI as a major concern. As a result, CMS
                                 requires its ofTerors and contractors to submit OCI infom1ation during the solicitation
                                 period and annually thereafter. As a result, and as reflected in the orG report, the ZPIC
                                 offerors identified almost 2,000 apparent. potential or actual OCls. We believe receiving
                                 this magnitude of potential OCI issues is a direct result ofCMS consistent efforts of
                                 raising awareness of OCI and working with the contractor community to identify possible
                                 OCls. Consistent with section 9.5 of the Federal Acquisition Regulations (FAR 9.5),
                                 CMS reviewed and resolved conflicts of interest for those organizations who were
                                 awarded a ZPIC contract.

                                  It is important to note that CMS has experienced a large number of Government
                                  Accountability Office (GAO) bid protests over the last several years. In many of these,
                                  bidders have challenged CMS' OCI analysis. In almost all cases, when a GAO decision
                                  was rendered, eMS OCI evaluation and determination was found acceptable by GAO.




Conflicts and Financial Relationships Among Potential Zone Program Integrity Contractors (OEI-03-10-00300)                                  31
                       Page 2 - Daniel R. I.cvinson


                       The Contracting Officer is responsible for exercising common sense, good judgment and
                       sound discretion when making OCI determinations. CMS addressed the ZPIC conflicts
                       of interest through exchanges with the apparent awardees. If there was a substantive
                       issue concerning an actual or potential conflict, CMS worked with the apparent awardee
                       to either avoid, neutralize or mitigate any significant potential conflict(s). The
                       Contracting Officer, in consultation with other appropriate CMS representatives,
                       determined that mitigation strategies submitted by the awardees were sufficient prior to
                       awarding any contracts. The mitigation strategies employed in the ZPIC procurements
                       included, but were not limited to, divestitures, de-identification of information to
                       subcontractors, exclusion of conflicted work for certain subcontractors, and
                       separationlfirewalls for access to information conflicts.

                       AlllPIC awardees have Compliance Officers on staff that oversee OCI matters and the
                       implementation of mitigation strategies. After the contract is awarded, lPIC contractors
                       are required to submit annual OCI certificates and are also required to submit updated
                       information within 45 days before any change in the information is made. CMS reviews
                       the annual submissions and also contracts with an independent firm that performs an
                       audit of the OCI submission. CMS uses this information to address any new or emerging
                       OCI issues that might arise during performance of the contract.

                       CMS receives OCI submissions for all ZPIC offerors. However, CMS prioritizes the
                       review and mitigation of OCls for those organizations that are in the competitive range
                       and thus have potential for winning the contract effort. Since not all offerors will be
                       successful in being awarded a contract, CMS believes its resources are best utilized in
                       this manner.

                       CMS is in the process of finalizing an OCI review policy for procurement staff. CMS
                       provided OIG with the draft of the policy during its review. Following the final internal
                       CMS committee review, the policy will be implemented.

                       CMS' response to each OIG recommendation and general comments follows:

                       OIG Recommendation

                       CMS should provide clearer guidance in the Request for Proposal to offerors and subcontractors
                       regarding which business and contractual relationships should be identified as actual conflicts
                       and which should be identified as possible conflicts (I.e., apparent or potential conflicts).




Conflicts and Financial Relationships Among Potential Zone Program Integrity Contractors (OEI-03-10-00300)               32
                       Page 3 - Daniel R. Levinson


                       eMS Response

                       eMS concurs with this recommendation in part. We believe it is more appropriate to
                       limit the terms to those exclusively identified in the FAR. Section 9.S02(c) of FAR uses
                       the term of "actual or potential conflict of interest." eMS' draft Oel review policy, soon
                       to be implemented, contains standard RFP language to be used in all procurements.
                       Regarding the recommendation that offerors should identify their business and
                       contractual relationships as "potential or actual" conflicts, eMS will agree to consider
                       language in our guidance to request that the o fferor classify its conflicts as "potential"
                       and/or "actual."

                       OIG Recommendation

                       eMS should require offerors and subcontractors to distinguish those business and
                       contractual relationships that they deem to be actual conflicts from those that are possible
                       conflicts (i.e., apparent or potential conflicts) in their organizational conflict of interest
                       certificates.

                       eMS Response

                       eMS concurs with this recommendation in part. See previous response.

                       O.G Recommendation

                       eMS should state whether offerors and subcontractors need to report income amounts,
                       periods of performance, and types of work performed for their contracts with eMS and
                       income amounts generated from key personnel's other employment.

                       eMS Response
                       eMS concurs with the recommendation. The attached is an excerpt from eMS' draft
                       oel review policy which outlines the proposal submission requirement(s) for prime and
                       subcontractors.

                        OIG Recommendation
                        eMS should create a standardized format for reporting intormation in the organizational conflict
                        of interest certificate and require its use by offerors and subcontractors.

                        eMS Response

                        eMS concurs with the recommendation. eMS' draft oel review policy contains RFP
                        language that standardizes the format for reporting information in the organization
                        conflict of interest certificate.




Conflicts and Financial Relationships Among Potential Zone Program Integrity Contractors (OEI-03-1 0-00300)                33
                       Page 4 - Daniel R. Lev.inson


                       OIG Recommendation
                       CMS should dev.elop a formal, written policy outlining how organization contlicts of
                       interest certificates are to be reviewed by CMS.


                       CMS Response

                       CMS concurs with the recommendation. The draft policy includes documentation
                       templates for use by Contracting Officers. In addition, CMS has recently performed
                       extensive training in this area and will continue to educate its staff on how to properly
                       assess, analyze and document OCI matters.


                       General Comments

                       In an effort to provide further clarity as to how eMS addressed ZPIC OCI issues, the
                       following general comments are also provided:

                       CMS suggests that the OIG report state that all substantive actual or potential OCls were
                       mitigated for ZPIC awardees to the satisfaction of the Contracting Officer. These
                       contlicts were addressed and mitigated prior to the award.

                       In performing OCI analysis, it is important to understand the contract requirements and
                       the roles of the contractor. As background, CMS uses ZPICs to perform program
                       integrity activities designed to fight fraud, waste, and abuse in the Medicare program. In
                       doing so, ZPICs review providers and suppliers (i.e. physician, hospitals, DME suppliers,
                       etc) and their submitted fee-far-service Medicare claims in performing its activities. In
                       traditional fee-for-service, the fraud in which the ZPIC is required to review occurs at the
                       provider level, not at the claims processing level. The ZPIC contract has the potential for
                       ZPICs to also perform program integrity activities associated with Medicare Part C
                       and/or D. Unlike traditional fee-for-service Medicare, where fraud typically occurs at the
                       provider level as indicated above, in Part CID, fraud can occur at the plan level. This
                       distinction is important for OCI analysis because consideration must be given regarding
                       who or what the ZPIC is reviewing.

                        Page 10 states; "Offerors and their subcontractors often had business and
                        contractual relationships with CMS and with other offerors, but rarely considered
                        them to be actual conflicts."
                               As stated in the beginning of this report, CMS has been addressing OCI issues
                               since 1999. We required that ZPIC offerors disclose conflicts so we could make
                               an independent analysis of the specific conflicts, regardless of how offcrors
                               characterized such conflicts. In some cases we disagreed with the offerors
                               assessment of the conflict, and in other cases we agreed with the
                               offerors/contractor's assessment.




Conflicts and Financial Relationships Among Potential Zone Program Integrity Contractors (OEI-03-1 O"()0300)          34
                      Page 5 - Daniel R. I.evinson


                      Page 12-13 stated "Offerors, subcontractors, and eMS identified 1,919 business and
                      contractual relationsbips as possible conflicts and 16 as actual conflicts."

                             Again, CMS considers it a success that the offerors disclosed as many OCI issues
                             as they did. As stated earlier, CMS addressed all significant OCl's of the
                             successful ZPIC awardees.
                      OIG also mentions on page 16 of the report that its review of certificates did not reveal
                      documentation of CMS conducting a preliminary review of three offerors and four of
                      their subcontractors' certificates. CMS would like to clarify that a preliminary or cursory
                      review was conducted; however, no documentation was included in the file as this is not
                      required for offerors not included in the competitive range for award.

                      CMS thanks the OIG for evaluating this important issue and is confident our new OCI 

                      policy will enhance our already rigorous OCI evaluations and determination process. 





Conflicts and Financial Relationships Among Potential Zone Program Integrity Contractors (OEI-03-10-00300)          35
                    ACKNOWLEDGMENTS
                   This report was prepared under the direction of Robert A. Vito, Regional
                   Inspector General for Evaluation and Inspections in the Philadelphia
                   regional office; and Linda M. Ragone, Deputy Regional Inspector
                   General.
                   Tanaz Dutia served as the team leader for this study. Other principal
                   Office of Evaluation and Inspections staff from the Philadelphia regional
                   office who contributed to the report include Russell Tisinger; central office
                   staff who contributed include Scott Manley.




Conflicts and Financial Relationships Among Potential Zone Program Integrity Contractors (OEI-03-10-00300)   36
                      Office of Inspector General 

                                         http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out through
a nationwide network of audits, investigations, and inspections conducted by the following operating
components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all
50 States and the District of Columbia, OI utilizes its resources by actively coordinating with the
Department of Justice and other Federal, State, and local law enforcement authorities. The investigative
efforts of OI often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
